TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Managers and System Administrators Need to Limit
                    Employees’ Access to Computer Systems



                                             July 2005

                              Reference Number: 2005-20-097




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | Luis.Garcia@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 8, 2005


MEMORANDUM FOR CHIEF INFORMATION OFFICER
               CHIEF, MISSION ASSURANCE AND SECURITY SERVICES



FROM:                        Pamela J. Gardiner
                             Deputy Inspector General for Audit

SUBJECT:                     Final Audit Report – Managers and System Administrators Need to
                             Limit Employees’ Access to Computer Systems (Audit # 200420036)

This report presents the results of our review to assess the effectiveness of the Internal Revenue
Service’s (IRS) controls over authorizing user access to its computer systems. A fundamental
principle of effective computer security is employees should be given access to only those
systems and applications for which they have a business need. Giving employees access beyond
their job responsibilities creates unnecessary opportunities for unauthorized access to or misuse
of tax return data, such as selling data for identity theft purposes.
In prior Treasury Inspector General for Tax Administration reviews, we have identified
weaknesses where IRS employees or former employees had unnecessary access to tax data. The
IRS implemented the Online 5081 (OL5081) system1 in July 2002 to address these deficiencies.

Synopsis
By implementing the OL5081 system and related processes, the IRS has taken a major step to
improve the process of authorizing user access to IRS systems. For example, the automated
process for requesting and approving access to systems is less cumbersome and eliminates the
need for paper forms to be sent and received by various parties throughout the process.
Authorizing access to an account, which took weeks using the paper Information System User
Registration/Change Request (Form 5081), can now be done as quickly as 1 day.


1
 The OL5081 system was named after the Information System User Registration/Change Request (Form 5081) the
IRS uses to request and authorize user accounts for employees on all systems. The OL5081 system automates some
of the manual processes and provides a centralized system for all system access authorizations.
                              Managers and System Administrators Need to Limit
                                  Employees’ Access to Computer Systems



Nevertheless, we identified the same three problems we reported before the implementation of
the OL5081 system. These weaknesses continue to occur because managers and system
administrators have not adhered to the OL5081 system procedures.
First, managers and system administrators did not ensure user accounts for employees were
removed from systems when employees left the IRS, transferred to another function, or changed
job responsibilities. Keeping these user accounts active increased the risk they could be used for
unauthorized disclosure of taxpayer data.
Second, managers and system administrators did not have documentation of employees’ access
authorizations. One possibility is managers did not ensure all system users were added to the
OL5081 system when the IRS converted from paper to the automated system. Another
explanation is system administrators may have granted employees access to systems without
proper authorization from the employees’ managers. Without the required documentation,
accountability for authorizing access could not be determined. The lack of documentation to
support employee access increases the risk that employees could have more access than needed.
Finally, those employees not included on the OL5081 system were never required to
acknowledge awareness of their security responsibilities. In addition, some managers and
employees did not appear to act on reminders generated by the OL5081 system to recertify their
awareness of security policies and procedures. Requiring employees to acknowledge security
rules before being granted access to a system and requiring annual recertification promotes
employee awareness of security policies and can make the IRS a more security-minded
organization.

Recommendations
We recommended the Chief Information Officer enforce current procedures by configuring
systems to automatically disable users’ accounts after 45 days of inactivity and to automatically
delete the accounts after 90 days of inactivity. We also recommended the OL5081 system be
enhanced to automatically generate notifications to system administrators when employees have
not recertified their awareness of security rules within 45 days. System administrators should
disable access privileges for those employees until they reapply for access and recertify their
awareness of security rules. We also recommended the Chief, Mission Assurance and Security
Services, coordinate with the business units to include tests of access controls during annual
self-assessments required by the Federal Information Security Management Act (FISMA).2




2
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                                    2
                       Managers and System Administrators Need to Limit
                           Employees’ Access to Computer Systems




Response
The IRS agreed with our recommendations. However, it noted that disabling and deleting
accounts for inactivity cannot be applied to all systems. Certain systems exist where employee
inactivity beyond the recommended time periods is normal. These systems require employee
access only upon completion of a specific activity, such as travel and training. We concur with
these comments.
The Chief Information Officer will issue a revised policy statement requiring the timely deletion
or disabling of inactive accounts in accordance with current procedures and the evaluation of the
feasibility of automating the deletion and disabling of unused accounts. In addition, the Chief
Information Officer implemented enhancements to the OL5081 system so employees and
managers will be unable to perform any actions on a system until annual recertifications have
occurred. The Chief, Mission Assurance and Security Services, will coordinate with the other
business units for conducting testing of access controls, as part of the IRS’ annual FISMA
processes. Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                  3
                                 Managers and System Administrators Need to Limit
                                     Employees’ Access to Computer Systems




                                               Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Online 5081 System Improves the User Account
          Authorization Process ...................................................................................Page 3
          Managers and System Administrators Did Not Carry Out
          Their Responsibilities ...................................................................................Page 3
                    Recommendations 1 and 2: ................................................Page 8

                    Recommendation 3: .................................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – List of Treasury Inspector General for Tax
          Administration Audit Reports With Unauthorized or Unnecessary
          User Accounts Issues ....................................................................................Page 14
          Appendix V – Description of Internal Revenue Service Automated
          Systems Selected for Review........................................................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
                           Managers and System Administrators Need to Limit
                               Employees’ Access to Computer Systems




                                             Background

The Internal Revenue Service (IRS) has over 300 computer systems to process and maintain over
222 million tax returns. The data in these systems are considered sensitive and require protection
from unauthorized use, modification, disclosure, and destruction. The importance of protecting
these data was illustrated when the President signed into law the Taxpayer Browsing Protection
Act of 1997.1 This Act makes the willful unauthorized access and inspection of taxpayer records
a crime.
A fundamental principle of effective computer security is
employees should be given access to only those systems and
applications for which they have a business need. Giving                The IRS requires that
employees access beyond their job responsibilities creates          employees be given access to
unnecessary opportunities for unauthorized access to or             only those systems they need
                                                                          to execute their job
misuse of tax return data, such as selling data for identity                responsibilities.
theft purposes. To limit the opportunities for misuse of
sensitive data, the IRS requires that employees be given
access to only those systems they need to execute their job
responsibilities. To fulfill this requirement, the IRS established the Information System User
Registration/Change Request (Form 5081) to request and authorize employees’ system user
accounts.
The IRS has acknowledged that procedures associated with the Form 5081 process were not
being followed as intended. For example, user accounts for employees who had separated from
the IRS were not deleted from systems, or Form 5081 documentation was not being maintained
to support proper authorization for access to systems. Since 1998, the IRS had also designated
the Separating Employee Clearance process as a significant control deficiency under the Federal
Managers’ Financial Integrity Act of 1982.2 The deficiency mainly deals with processes related
to employees who leave the IRS, which includes the management and deletion of user accounts
for separated employees.



1
  26 U.S.C.A. §§ 7213, 7213A, 7431 (West Supp. 2003).
2
  31 U.S.C. §§ 1105, 1113, 3512 (2000). This Act requires Federal Government agencies to annually assess the
adequacy of controls and identify any areas of control weaknesses, designated as either material weaknesses or
significant control deficiencies. The Department of the Treasury defines material weaknesses as “shortcomings in
operations or systems which, among other things, severely impair or threaten the organization’s ability to
accomplish its mission or to prepare timely, accurate financial statements.” Significant control deficiencies are
defined as “problematic issues which do not rise to the level of materiality, but which warrant special management
attention to ensure improvement, rather than deterioration to the point where they become material weaknesses.”
                                                                                                            Page 1
                          Managers and System Administrators Need to Limit
                              Employees’ Access to Computer Systems



Prior Treasury Inspector General for Tax Administration (TIGTA) reviews have also identified
similar problems as they related to the Form 5081 process. Appendix IV presents a list of prior
audit reports that contain these types of issues.
To address these deficiencies, the IRS automated the process by developing the
Online 5081 (OL5081) system.3 In implementing this system in October 2002, the former
Deputy Commissioner required all IRS managers to conduct a thorough review of their
employees’ access profiles and complete an OL5081 system record for each of their employees
with current access privileges. Additionally, in May 2004, the Acting Director, End User
Equipment and Services (EUES), required the use of paper Forms 5081 be terminated by
November 2004. In December 2004, the EUES organization completed improvements to the
OL5081 system, including giving the system a more user-friendly appearance and expanding
screen instructions and menu accessibility.
The following five systems were judgmentally selected for our review. Appendix V provides a
description of these systems.
    •   Appeals Centralized Database System (ACDS).
    •   Automated Collection System (ACS).
    •   Automated Underreporter System (AUR).
    •   Integrated Case Processing (ICP).
    •   Taxpayer Advocate Management Information System (TAMIS).
This review was performed in the Office of Information Technology Services at the IRS National
Headquarters in Washington, D.C., during the period July 2004 through January 2005. We also
contacted managers located in several IRS locations. The audit was conducted in accordance
with Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




3
 The OL5081 system was named after the Form 5081 the IRS uses to request and authorize user accounts for
employees on all systems. The OL5081 system automates some of the manual processes and provides a centralized
system for all system access authorizations.
                                                                                                      Page 2
                       Managers and System Administrators Need to Limit
                           Employees’ Access to Computer Systems




                                Results of Review

The Online 5081 System Improves the User Account Authorization
Process

By implementing the OL5081 system in July 2002, the IRS has taken a major step to improve the
process of authorizing user access to IRS systems. The automated
process for requesting and approving access to systems is less     The IRS has taken a major
cumbersome and eliminates the need for paper forms to be sent     step to improve the process
and received by various parties throughout the process.           of authorizing user access to
Authorizing access to an account, which previously took weeks         its computer systems.
using paper Forms 5081, can now be done in as fast as 1 day. The
OL5081 system is used to grant access to almost all IRS systems.
The OL5081 system process starts with an employee completing an online Form 5081 with all
required information. When the employee completes the request, the OL5081 system sends an
email message to the employee’s manager regarding the request. The manager then accesses the
OL5081 system to approve the request. Once the request has been approved, the OL5081 system
generates an email to the system administrator who creates the user account. The user is then
notified his or her user account is active and ready for access.
To delete a user who no longer has a need to access a system, the manager initiates the removal
process on the OL5081 system. An email is then sent to the system administrator to remove the
account.
In addition to expediting the addition and removal of employees’ access rights to a system, the
OL5081 system is also used to document that employees have certified they understand IRS
security rules. IRS procedures require employees to make this certification annually as a means
to enhance security awareness and understanding.


Managers and System Administrators Did Not Carry Out Their
Responsibilities

Although the OL5081 system automates the process for creating and deleting user accounts,
certain responsibilities continue to rely on human initiation and intervention. For example,
managers must ensure employees need access to a system before granting access and promptly
notify system administrators to remove employees from a system when access is no longer

                                                                                         Page 3
                              Managers and System Administrators Need to Limit
                                  Employees’ Access to Computer Systems



necessary. Managers are also required to annually review the appropriateness of their
employees’ access privileges.
In turn, system administrators are responsible for adding and removing system users when
authorized, monitoring users’ accesses, maintaining an up-to-date list of authorized users, and
annually generating a list of current system users and their access profiles to provide to the
appropriate managers for review.
The Federal Information Security Management Act (FISMA)4 requires business units to annually
conduct self-assessments of the security of their systems. Access to computer systems should be
evaluated as part of these self-assessments to determine whether managers and employees have
implemented the controls effectively.
However, our review of the five systems identified employees who:
       •   Had access to systems they did not need to assist them in carrying out their
           responsibilities.
       •   Had access to systems that were not properly authorized and documented.
       •   Had not certified they were aware of IRS security procedures.
These conditions occurred because managers and system administrators did not adhere to
OL5081 system procedures. In addition, prior FISMA self-assessments had not addressed access
controls.

Employees had access to systems they did not need

In our review of the 5 systems, we identified 139 (21 percent) of 652 employees with active user
accounts who, according to their managers, no longer had a business need to have system access.
Table 1 presents these numbers by the systems reviewed.




4
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                           Page 4
                        Managers and System Administrators Need to Limit
                            Employees’ Access to Computer Systems



             Table 1: Active Accounts With and Without a Business Need


       Systems     Number of       Number of        Number of Users      Number of Users
                   Total Users    Users in Our         Without a         With a Business
                                    Sample           Business Need            Need
       ACDS           2,464            113                   5                 108
       ACS            5,297            166                   26                140
       AUR            2,319             88                   17                 71
       ICP            34,342           167                   82                 85
       TAMIS          3,235            118                   9                 109
         Total        47,657           652                139                  513

       Source: TIGTA analysis.

Discussions with managers of the system account users identified the following reasons why
access was no longer needed.
   •   Employees (54) had separated from the IRS and their managers agreed their access rights
       should have been removed. One employee who still had access separated from the IRS
       over 2 years before our review.
   •   Employees (47) were transferred to other positions.
   •   Employees (38) remained in their current positions but no longer needed access to the
       system due to changing job duties.
Managers and system administrators did not follow
IRS procedures to terminate these employees’ access        Managers and system administrators
privileges. The existence of active user accounts for        did not follow IRS procedures to
employees who no longer have a business need             terminate employees’ access privileges.
poses an unnecessary risk for unauthorized
disclosure of taxpayer data. Out of the 54 employees
who separated from the IRS but still had active user accounts, we identified 5 user accounts that
had been accessed after the employees separated from the IRS.
We have previously reported the issue of unnecessary user accounts on systems in
application-specific reviews (see Appendix IV for specific reports.) The implementation of the
OL5081 system has had little effect on this issue, even though the system gives managers and


                                                                                           Page 5
                       Managers and System Administrators Need to Limit
                           Employees’ Access to Computer Systems



system administrators a single place to identify employee access to multiple systems and initiate
system separation action when an employee’s responsibilities change.
Some systems have the capability to automatically disable an employee’s user account if he or
she had not accessed the system within a predetermined time period. The IRS requires that an
employee’s access rights be disabled if he or she has not used a system within 45 days; access
rights are to be removed from a system if not the employee has not accessed it within 90 days.
System administrators had not configured the systems to ensure these requirements were met.

Employees’ access capabilities were not always authorized or documented

In our sample of 652 employees, 513 employees had a business need to access the systems. As
previously indicated, a manager’s authorization is required and must be documented prior to
granting a user system access. We found no
indications on the OL5081 system that
                                                             Managers did not carry out their
128 (25 percent) of the 513 employees had been                  responsibilities, or system
properly authorized. We were also unable to find             administrators may have added
paper copies of approved authorizations in the               employees to systems without a
employees’ personnel folders or from the                         manager’s authorization.
employees’ current managers.
Without the Form 5081 information, it is impossible to determine how these employees obtained
access to the systems. We believe either managers did not carry out their responsibilities, or
system administrators may have added employees to systems without a manager’s authorization.
When the IRS transitioned to the OL5081 system in July 2002, it attempted to enter all paper
Forms 5081 into the OL5081 system. We acknowledge this is an ongoing effort and could
explain why we were unable to find records on the OL5081 system for all user accounts in our
sample. However, managers may not have carried out their responsibilities for ensuring all
system users were added to the OL5081 system.
Another explanation for the lack of documentation is system administrators, rather than
managers, authorized access to systems. Without documentation of access authorizations,
accountability for granting access cannot be readily determined and the risk that employees had
more access than needed is increased.
In addition, managers and system administrators will be unable to use the OL5081 system to
identify all user accounts for employees who separate from the IRS. To illustrate, when the
128 employees in our sample above separate from the IRS, the OL5081 system will not identify
all systems to which the employees have access and the user accounts could remain active and
useable. If a former employee was able to enter an IRS facility and logon to an IRS computer,
he or she could access the system to obtain tax return data.

                                                                                           Page 6
                          Managers and System Administrators Need to Limit
                              Employees’ Access to Computer Systems




Employees did not certify they were aware of IRS security procedures

The IRS requires systems users to know, understand, and agree to practice the rules of system
use, prior to accessing a system. Managers must ensure users acknowledge they understand the
system security requirements, rules, and responsibilities prior to granting them system access.
Managers must also ensure users annually recertify their awareness of the system security rules
for all systems to which access has been granted.
These requirements have been automated through the OL5081 system. When users request
access to a system, they need to acknowledge, in the OL5081 system, that they understand
system security rules. In addition, the OL5081 system automatically sends email reminders to
users and their managers when annual recertification is needed.
Of the 513 employees reviewed, 1735 (34 percent) did not meet their annual recertification
requirement indicating their understanding of IRS
security rules. Among these 173 employees were             Employees and managers did not act
45 employees who had initially certified they               on recertification email reminders
understood the security rules over 1 year ago but had       generated by the OL5081 system.
not annually recertified their awareness of the
security rules. It appears employees and managers
did not act on the recertification email reminders generated by the OL5081 system.
Requiring employees to acknowledge security rules before being granted access to a system and
requiring annual recertification promotes employee awareness of security policies and can make
the IRS a more security-minded organization. In not doing so, employees could unknowingly
compromise security within the IRS. For example, the system security rules state employees
must protect their passwords at all times and should not share them with anyone else regardless
of that person’s position inside or outside the IRS. A TIGTA audit report6 on employees’
susceptibility to social engineering tactics showed that 35 of 100 managers and employees
provided their user accounts and changed their passwords when we posed as an Information
Technology helpdesk employee.
To further ensure employees are aware of their security responsibilities, we believe the OL5081
system could be used to systemically generate an email to system administrators for the purpose
of disabling user accounts if employees had not recertified.



5
  The 173 employees include the 128 employees whose access rights were never entered into the OL5081 system.
There is no indication these 128 employees ever acknowledged the security rules.
6
  While Progress Has Been Made, Managers and Employees Are Still Susceptible to Social Engineering Techniques
(Reference Number 2005-20-042, dated March 2005).
                                                                                                      Page 7
                       Managers and System Administrators Need to Limit
                           Employees’ Access to Computer Systems




Recommendations
Recommendation 1: The Chief Information Officer should enforce current procedures on all
systems by configuring systems to automatically disable employees’ accounts after 45 days of
inactivity and to automatically delete the accounts after 90 days of inactivity.
       Management’s Response: The Chief Information Officer will issue a revised policy
       statement requiring the timely deletion or disabling of inactive accounts in accordance
       with current procedures. The policy statement will require each system and application
       owner to identify inactive accounts and take the appropriate actions to ensure managers
       and system administrators delete separated employees’ accounts from the IRS network,
       disable user accounts after 45 days of inactivity, and delete accounts after 90 days of
       inactivity on all applicable systems and applications.
       The Chief Information Officer’s revised policy will also require each affected system and
       application owner to evaluate the feasibility of automating the disabling and deletion of
       unused accounts. The feasibility report will identify the systems and applications that can
       be automated with a projected schedule to include implementation and completion dates.
       A justification statement with detailed information will be prepared for each system and
       application that cannot be automated.
Recommendation 2: The Chief Information Officer should enhance the OL5081 system by
automatically generating reminders to system administrators when employees have not
recertified their awareness of security rules within 45 days. System administrators should
disable access privileges for those employees until they reapply for access and recertify their
awareness of security rules. We believe these actions would highlight the importance of annual
recertification of system access for users and managers.
       Management’s Response: The Chief Information Officer has completed the
       following actions. The OL5081 system was reprogrammed to provide account/system
       administrators with automatic notifications that direct them to disable the accounts of
       employees who are placed in a furloughed or other nonpay status and to generate
       automatic notifications to “managers gaining new employees,” to validate these
       employees’ system accesses. In addition, the OL5081 system will default to the
       recertification message requiring a manager to recertify his or her employees each time
       the manager logs into the OL5081 system, prior to allowing the employees to perform
       any other action.
       In addition, the Chief Information Officer will ensure employee access privileges will be
       disabled if employees fail to acknowledge or recertify the Information Technology
       System Security Rules within 45 days of their notification for systems managed by the
       Modernization and Information Technology Services (MITS) organization. For systems

                                                                                           Page 8
                       Managers and System Administrators Need to Limit
                           Employees’ Access to Computer Systems



       managed by the business units, system administrators will receive notification and be
       mandated to disable access privileges for those employees who fail to recertify. The
       MITS organization will also review a report generated by the OL5081 system that lists all
       accounts marked for disabling or deletion and notify the appropriate system owner if
       further action is required.
Recommendation 3: The Chief, Mission Assurance and Security Services, should coordinate
with the business units to include tests of access controls during annual self-assessments required
by the FISMA. These tests should eventually increase all managers’ awareness of their
responsibilities to limit employees’ system access to those who need it to accomplish their
responsibilities, document authorizations to access the systems, and ensure employees recertify
their awareness of security procedures.
       Management’s Response: The Chief, Mission Assurance and Security Services, will
       coordinate with the other business units for conducting testing of access controls. The
       testing of management, operational, and technical controls will be implemented as a part
       of the IRS’ annual FISMA processes.




                                                                                            Page 9
                          Managers and System Administrators Need to Limit
                              Employees’ Access to Computer Systems



                                                                                               Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the Internal Revenue
Service’s (IRS) controls over authorizing user access to its computer systems. To accomplish
our objective, we:
I.      Determined whether the Online 5081 (OL5081) system1 process is effective in reducing
        risks associated with users’ access to applications.
        A.       Identified areas of responsibility and work flow processes for the OL5081 system
                 by interviewing:
                 1. Personnel in the Office of Information Technology Services to determine how
                    the system works, the roles of different individuals (e.g., employee, manager,
                    application project office, system administrators), and the current status of the
                    application rollout implementation.
                 2. Security personnel and system administrators to determine the procedures for
                    adding and deleting employees and contractors from systems using the
                    OL5081 system.
        B.       Confirmed whether system users had acknowledged security rules and
                 regulations.
        C.       Determined whether the OL5081 system provided management with a
                 notification when recertifications were due for users under its jurisdiction.
        D.       Interviewed IRS management to ascertain why the OL5081 system process was
                 not used when accesses to applications were being granted using a paper
                 Information System User Registration/Change Request (Form 5081).
        E.       Reviewed the process for establishing managerial approval for authorizing access
                 and determined how those designations were kept current.
II.     Determined whether user accounts had been established for only those individuals with a
        business need.
        A.       Identified all user accounts for the following five IRS systems:


1
  The OL5081 system was named after the Information User Registration/Change Request (Form 5081) the IRS uses
to request and authorize user accounts for employees on all systems. The OL5081 system automates these processes
and provides a centralized area for all system access authorizations.

                                                                                                       Page 10
                             Managers and System Administrators Need to Limit
                                 Employees’ Access to Computer Systems



                    •   Appeals Centralized Database System.
                    •   Automated Collection System.
                    •   Automated Underreporter.
                    •   Integrated Case Processing.
                    •   Taxpayer Advocate Management Information System.
                    These 5 systems were judgmentally selected from over 300 systems based on
                    concurrent audit work on specific applications, sensitivity of data, applicability to
                    IRS employees, and the availability of certain data fields (e.g., date last accessed).
           B.       Judgmentally selected 66 managers located in several IRS offices.2 The managers
                    were responsible for 652 employees with active user accounts on these 5 systems.
                    We judgmentally selected the managers because we did not plan to project our
                    audit results.
           C.       Contacted the managers to determine whether the 652 users truly needed access to
                    the systems.
           D.       Obtained “last accessed” date for the sample of users selected to determine
                    whether the users had accessed the application within 90 days. For user accounts
                    not accessed within 90 days, we determined whether the account had been
                    disabled or deleted, or we obtained an explanation as to why the user account was
                    still active.
           E.       Determined whether the selected applications had user accounts for separated
                    employees by cross-referencing user accounts with separated employee data from
                    the IRS’ time and attendance system and the OL5081 system, respectively.
III.       Determined whether users had been properly authorized for access.
           A.       Determined whether policies and guidelines had been followed and employees
                    had been properly authorized for access to applications by obtaining the
                    Form 5081 (electronic or paper) for the sample selected in Step II. B.
           B.       Determined whether temporary authority to approve access to applications had
                    been properly controlled.
           C.       Determined whether recertifications were timely completed.



       2
        We could not readily determine the population of managers for each system because two of the five systems
       did not contain manager names for each user account. For those systems, we had to conduct specific queries
       and research the IRS’ Discovery Directory to identify managers for our sample.

                                                                                                          Page 11
                      Managers and System Administrators Need to Limit
                          Employees’ Access to Computer Systems



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Kent Sagara, Audit Manager
Myron Gulley, Senior Auditor
Louis Lee, Senior Auditor
Abraham Millado, Senior Auditor
Midori Ohno, Senior Auditor
William Simmons, Senior Auditor




                                                                                         Page 12
                     Managers and System Administrators Need to Limit
                         Employees’ Access to Computer Systems



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
National Taxpayer Advocate TA
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Director, Business Systems Development OS:CIO:I:B
Director, End User Equipment and Services OS:CIO:I:EU
Director, Enterprise Operations OS:CIO:I:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                                 Page 13
                          Managers and System Administrators Need to Limit
                              Employees’ Access to Computer Systems



                                                                                            Appendix IV

       List of Treasury Inspector General for Tax
    Administration Audit Reports With Unauthorized or
           Unnecessary User Accounts Issues

In the following five Treasury Inspector General for Tax Administration audit reports, we
reported employees had access to systems they did not need to carry out their responsibilities and
user accounts were available on systems that were not supported with an Information System
User Registration/Change Request (Form 5081).1 The lack of a Form 5081 indicated that access
was not properly authorized and users had not certified their awareness of security rules.
The Security of the Integrated Collection System Needs to Be Strengthened (Reference
Number 2003-20-119, dated May 2003).
Key Security Controls of the Currency and Banking Retrieval System Have Not Been
Implemented (Reference Number 2003-20-211, dated September 2003).
Inadequate Accountability and Training for Key Security Employees Contributed to Significant
Computer Security Weaknesses (Reference Number 2004-20-027, dated January 2004).
Security Controls for the Counsel Automated System Environment Management Information
System Could Be Improved (Reference Number 2005-20-036, dated February 2005).
Security Controls for the Appeals Centralized Database System Could Be Improved (Reference
Number 2005-20-069, dated March 2005).




1
 The Internal Revenue Service established the Form 5081 to request and authorize employees’ system user
accounts.

                                                                                                          Page 14
                      Managers and System Administrators Need to Limit
                          Employees’ Access to Computer Systems



                                                                               Appendix V

 Description of Internal Revenue Service Automated
            Systems Selected for Review

The following Internal Revenue Service (IRS) systems were judgmentally selected based on
concurrent audit work on specific applications, sensitivity of data, applicability to IRS
employees, and the availability of certain data fields (e.g., date last accessed).
Appeals Centralized Database System – An Appeals organization system used for case receipt,
control, and processing, as well as to record case activities and time charges.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Underreporter System – An automated system that matches taxpayer income and
deduction information submitted by third parties to amounts reported on individual income tax
returns.
Integrated Case Processing – An integrated system that provides employees with information
to respond to a taxpayer inquiry and resolve most kinds of issues.
Taxpayer Advocate Management Information System – A Taxpayer Advocate Service (TAS)
organization system used to record and manage all case activity involving the handling and
resolution of significant hardship cases and other taxpayer problems that fall within the TAS
organization’s jurisdiction.




                                                                                       Page 15
       Managers and System Administrators Need to Limit
           Employees’ Access to Computer Systems




                                                 Appendix VI

Management’s Response to the Draft Report




                                                          Page 16
Managers and System Administrators Need to Limit
    Employees’ Access to Computer Systems




                                                   Page 17
Managers and System Administrators Need to Limit
    Employees’ Access to Computer Systems




                                                   Page 18
Managers and System Administrators Need to Limit
    Employees’ Access to Computer Systems




                                                   Page 19
Managers and System Administrators Need to Limit
    Employees’ Access to Computer Systems




                                                   Page 20
Managers and System Administrators Need to Limit
    Employees’ Access to Computer Systems




                                                   Page 21
